           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                 Date:    September 12, 2014
           Single Audit of the City of Atlanta, Georgia
           Report No. QC-2014-109


  From:    George E. Banks, IV                                                     Reply to
                                                                                   Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FAA Southern Region


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the City of Atlanta, Georgia (the City). This report presents the
           results of our Quality Control Review (QCR) on DOT’s major grant programs
           included in the single audit of the City performed by KPMG LLP (KPMG) for the
           fiscal year ended June 30, 2013. During this period, the City expended
           approximately $34 million from DOT grant programs. KPMG determined that
           DOT’s major programs were the Airport Improvement Program and the Highway
           Planning and Construction Program. We limited the scope of our QCR to the
           Airport Improvement Program because no Highway Planning and Construction
           Program funds were awarded directly to the City.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           KPMG rendered an unmodified opinion on the City’s financial statements and
           compliance with DOT’s major program requirements for the Airport Improvement
           Program and the Highway Planning and Construction Program. While it did not
           question any costs, KPMG made a recommendation to correct an internal and
           compliance finding that affects the Federal Aviation Administration. 1

           1
             We advised FAA about this deficiency in a separate memorandum. KPMG’s single audit report is available upon
           request to singleauditrequest@oig.dot.gov.
                                                                                  2



SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on the Airport
Improvement Program.

RESULTS

We determined that KPMG’s audit work was Acceptable with Deficiencies, and
therefore, generally met the requirements of the Single Audit Act, OMB Circular
A-133, and DOT’s major program. We found nothing to indicate that KPMG’s
opinion on DOT’s major program was inappropriate or unreliable.

While the deficiencies we identified in the audit documentation need to be
corrected in future audits, we determined that the deficiencies did not alter the
overall results of the audit report. The deficiencies are related to:

Special Tests and Provisions - Revenue Diversion – KPMG did not document
its understanding of internal controls related to the revenue diversion requirement.

Follow-up on the Status of Prior Year Audit Findings – KPMG needs to
improve its audit documentation to clarify its procedures performed related to
follow-up on the status of prior year audit findings.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                         #

cc: Audit Liaison, FAA, AWP-100
    Manager, FAA, Atlanta Airports District Office
    Audit Liaison, FAA, Southern Region, ASO-620
    Audit Liaison, OST, M-1
    Director, Financial Reporting, City of Atlanta
    Partner, KPMG
